July 27, 2001
Audit Report No. 01-019


Audit of Ecker Square Building
Renovation Contract Modifications
Federal Deposit Insurance Corporation                                                                 Office of Audits
Washington, D.C. 20434                                                                    Office of Inspector General




   DATE:           July 27, 2001

   TO:	            Arleas Upton Kea, Director
                   Division of Administration



   FROM:	          Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                   Assistant Inspector General for Audits

   SUBJECT:	       Audit of Ecker Square Building Renovation Contract Modifications
                   (Audit Report No. 01-019)


   The Office of Inspector General (OIG) completed an audit of contract modifications to the Federal

   Deposit Insurance Corporation’s (FDIC) contract 99-00318-CS7 with Turner Construction (Turner)

   for the building renovation of 25 Ecker Square in San Francisco, California. We had previously audited

   billings submitted by The Ratcliff Architects (Ratcliff) for architectural and engineering services related to

   the Ecker Square building renovation. On January 10, 2001, the OIG issued Audit Report No. 01-001,

   Audit of The Ratcliff Architects’ Professional Fee Billings Under

   Contract 97-00384-S-JW. The report identified unallowable costs and recommended that the FDIC

   improve contract administration and oversight. Consequently, the OIG decided to audit the renovation

   contract itself.



   BACKGROUND

   On July 21, 1999, the FDIC executed contract 99-00318-CS7 to Turner to renovate the interior of the
   FDIC-owned building located at 25 Ecker Square in San Francisco, California. The renovation of the
   23-story, high-rise commercial office tower included 127,215 square feet of gross building area. The
   contractor was to demolish existing partitions and install new ones; provide and install all required
   millwork, carpet, paint, wall coverings, plumbing, electrical wiring and fixtures, computer and
   telecommunication cabling; replace the heating, ventilation, and air conditioning system (HVAC); and
   upgrade the Fire/Life/Safety systems. The renovation also incorporated bringing the building in
   compliance with the Americans with Disabilities Act requirements.

   The FDIC's Division of Administration (DOA), Acquisition and Corporate Services Branch, Acquisition
   Section, Washington, D.C., awarded the contract. However, DOA's San Francisco Acquisition
   Services Branch was responsible for contract management and the San Francisco DOA Chief,
   Corporate Services Branch, was responsible for contract oversight. The FDIC awarded the contract
   as a fixed-price contract for $11,700,428 and all work was to be completed by January 20, 2001.
   However, through a contract modification the FDIC extended the contract period of performance to
   March 31, 2001.
To assist in its oversight of the Turner construction contract, the FDIC engaged Ratcliff at a fixed-price
of $1.4 million to complete the interior design of the planned renovation and to provide contract
administration and oversight of Turner. According to FDIC’s contracting officer, Ratcliff was to
periodically inspect Turner's construction work, respond to contractor requests for information (RFI),
review materials/products to determine adherence to contract specifications, inspect the workmanship
as each of the five phases was completed, and prepare the "punch list" of items requiring correction.
Ratcliff was also to determine whether contract changes were needed and issue bulletins directing the
change; review, evaluate, and recommend change order requests and pricing of same; review and
recommend progress payment estimates; and attend weekly owner, architect, contractor meetings to
discuss job status and resolve outstanding issues and conditions.

As of December 8, 2000, DOA had executed 19 contract modifications to the Turner construction
contract involving 51 approved change orders. The total cost of the 19 modifications was $918,927.
The modifications addressed changes that were within the contract’s original scope of work with one
exception. Modification 010 for $115,681 added rooftop renovation work that was not included in the
original contract. Renovation of the roof was planned to be done later under a separate contract, but
heavy rains and construction activity required that the roof be replaced sooner than planned. The
Corporation chose to include the roofing work under the Turner contract.

Generally, the contract modifications were fixed-priced. However, we identified four exceptions.
Specifically, modification 001 for $145,570 was issued on a not-to-exceed basis with the final amount to
be adjusted to reflect the actual costs incurred. Further, although modifications 017, 018, and 019
(totaling $161,511) appeared to be fixed-priced, they contained a provision limiting reimbursement if the
contractor's actual costs were less than the fixed-price amount by 10 percent or more. Turner was to
notify the FDIC if its actual cost on each of these three modifications fell below the 10 percent level.

Chapter 7 of the FDIC's Acquisition Policy Manual (APM) sets forth the policy and procedures for
contract administration and oversight with Section 7.H. addressing contract changes and modifications.
Section 7.H. states that a contract change is either administrative or substantive. An administrative
change is within the scope of the contract, does not affect the rights of the parties, and is executed by
the FDIC on a unilateral basis. A substantive change does alter the rights and obligations of the parties
and requires a written bilateral modification to the contract. Before a change is executed, Section
7.H.3.e. states that the oversight manager is to (1) identify the requirement for a modification; (2)
determine whether the FDIC's cost for the change will exceed the expenditure ceiling and, if so, obtain
additional expenditure authority; (3) prepare a detailed, written explanation of the reason for and nature
of the change or modification; and (4) jointly (with the contracting officer) participate in any contractor
negotiations pursuant to the need for the modification.

Section 7.H.1.c. provides that the warranted contracting officer is the only official with delegated
authority to modify/change a contract. The contracting officer is responsible for determining whether a
proposed modification is within the scope of the contract and shall consult as necessary




                                                     2

with the Legal Division in making the determination. The contracting officer is also to negotiate changes
required by the modification and execute the modification with the contractor. However, the APM
does not provide any guidance for the contracting officer on pricing contract change orders and
modifications.

If the contracting officer determines that a request for modification is not within the scope of work, the
oversight manager shall provide the contracting officer with a complete and approved justification for
noncompetitive procurement. Procedures for approving noncompetitive requirements are stated in
APM 4.G.

A general overview of the Turner construction contract modification process is as follows:

•	   Turner or one of its subcontractors originated a request for information (RFI) and submitted it to the
     FDIC oversight manager for consideration. An RFI could result from unforeseen conditions,
     changed work site conditions, an unclear or contradictory scope of work, or a request for
     clarification by a subcontractor.

•	   The oversight manager then consulted with Ratcliff, which reviewed the request to determine
     whether the proposed work was outside of the original contract scope and whether the estimated
     price appeared to be reasonable. Ratcliff could seek input from its outside consultants on electrical,
     mechanical, hardware, structural, and acoustical items.

•	   The FDIC, Turner, and Ratcliff met to discuss the validity of any proposed modifications. After an
     agreement was reached to modify the contract, Ratcliff issued a bulletin to summarize any changes
     to the plans and specifications.

•	   The FDIC next requested a formal price proposal from Turner and, when received, the oversight
     manager distributed copies to the contracting officer and Ratcliff for review. The oversight manager,
     contracting officer, and Ratcliff then met to discuss pricing, scope, and negotiation strategy. The
     FDIC would then ask Turner to resubmit the proposal or request additional information. The FDIC
     could also reject the proposal and not modify the contract.

•	   After negotiations were completed and agreement reached, Turner submitted a revised proposal
     that was incorporated into a contract modification that could include one or more change orders.
     The oversight manager and contracting officer signed the final proposal.

•	   The oversight manager documented the modification with a procurement requisition and other
     supporting documentation, which was reviewed by the contracting officer. The contracting officer
     then executed the modification.




                                                     3

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed an audit of the first 19 contract modifications under contract 99-00318-CS7 with Turner
for the building renovation of Ecker Square. The effective dates of Modifications 001 and 019 were
October 1, 1999 and November 21, 2000, respectively. The objectives of the audit were to determine
whether: (1) contract modifications and change orders were based on accurate and adequate pricing
data, (2) contract modifications and change orders were consistent with FDIC acquisition policies, (3)
change orders were actually for work outside the scope of the original statement of work, and (4) the
FDIC was validating the costs billed under modifications that contained a monetary return provision
based on actual costs.

We interviewed FDIC personnel from the San Francisco DOA office. We researched and reviewed
contract modification and change order files maintained by both the oversight manager and contracting
officer. We also reviewed the APM, paying particular attention to Chapter 7.H. on contract
modifications and changes.

Although the contract was not covered by the Federal Acquisition Regulation (FAR), we researched
parts of the FAR that relate to construction and architectural/engineering contracts (Part 36), contract
modifications (Part 43), and subcontracting (Part 44) to determine whether any of the FAR guidance
could be used as a best practice to improve the FDIC procurement policy. To compare labor rates
charged by Turner’s subcontractors and passed on to the FDIC with the prevailing labor rates for San
Francisco, we obtained occupational wage rate estimates for various categories of construction workers
in San Francisco as of 1999 from the Department of Labor’s web site.

We also interviewed Turner and Ratcliff officials. We obtained contract billing and modification cost
data from Turner. Specifically, we spoke with Turner’s senior project manager and senior accountant
about the contractor’s ability to segregate actual costs for Modifications 017, 018, and 019. As we
previously stated, the FDIC’s contracting officer added a provision to the three modifications requiring
Turner to notify the FDIC in the event that the actual costs were less than the negotiated, fixed-price
amount by 10 percent or more.

We visited the Ratcliff office in Emeryville, California, to review its modification and change order files.
Our audit focused on the adequacy of documentation to support the accuracy of contract modification
and change order pricing. We also considered whether DOA’s oversight and contract administration
activities were consistent with FDIC acquisition policies. During our audit, we judgmentally sampled 12
approved change orders priced at $696,318 for detailed review. The 12 change orders represented
75.8 percent of the total value of $918,927 for the 19 modifications.

During the renovation, we physically observed Turner and its subcontractors at work on various floors of
the Ecker Square building. We witnessed the installation of carpeting, electrical fixtures, walls, and
kitchen appliances. We also encountered painting, fire/safety system upgrading, and HVAC activities in
progress.




                                                     4

Overall, we designed our audit work to gain an understanding of the FDIC’s controls over the contract
modification process. Our audit techniques related to evaluating whether such controls were in place
and working as intended. The OIG conducted the audit in San Francisco from October 6, 2000 to May
3, 2001 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

Except for Modification 010 related to the installation of a new roof, we concluded that there was
insufficient documentary evidence to determine whether contract modifications and change orders were
based on accurate and adequate pricing data. As a result, we do not have reasonable assurance that the
FDIC received the best prices for additional renovation work included in the contract modifications with
Turner. We believe this condition likely developed because the FDIC did not define specific procedures
needed to determine the validity of modification and change order pricing in the Ratcliff and Turner
contracts.

We did find that the FDIC generally complied with all existing procurement policies, procedures, and
delegations of authority governing contract modifications and change orders. The oversight manager
and contracting officer adhered to the requirements of Chapter 7 of the APM for administering and
overseeing the Turner contract. The oversight manager properly identified the modification
requirements, adhered to the expenditure ceiling, described the reasons for the modifications, and
participated in contractor negotiations. The contracting officer appropriately determined that the
proposed modifications were within the overall scope of the building renovation contract, consulted with
the Legal Division in making determinations, participated in contractor negotiations, and executed the
modifications.

We also found that the FDIC properly determined that change orders were for renovation work not
specified in the original statement of work. We found no evidence of unnecessary changes caused by
design flaws, nor did we find any change order work that duplicated tasks defined in the original
statement of work.

Lastly, we determined that the FDIC was not validating the actual costs billed under Modifications 017,
018, and 019 in order to monitor the provision that required Turner to notify the FDIC in writing when
actual modification costs were less than 10 percent or more below the negotiated prices. This provision
obligated Turner to credit the FDIC with the difference between the negotiated price and the actual
costs when the 10-percent threshold was reached. Furthermore, we found that Turner was not able to
identify the total actual costs by modification as required by the provision. Therefore, the FDIC may
find it difficult to enforce the provision for possible monetary returns or credits and largely left it up to
Turner, itself, to determine when the 10-percent threshold was met.




                                                     5

FDIC NEEDS TO STRENGTHEN CONTROLS OVER THE PRICING OF CONTRACT
MODIFICATIONS AND CHANGE ORDERS

There is insufficient evidence to determine that contract modifications and change orders were based on
accurate and adequate pricing data. Therefore, we do not have reasonable assurance that the FDIC
obtained the best prices on the modifications to the Ecker Square building renovation contract with
Turner.

In our review of FDIC/DOA and Ratcliff files and our discussions with Turner, we found little or no
evidence of analysis and verification of pricing support for contract modifications and change orders. It
is important to note that the FDIC’s contracts with Turner and Ratcliff are silent concerning the specific
procedures to be followed to determine whether contract modifications and change orders were based
on accurate and adequate pricing data.

We reviewed the FDIC contract modification files maintained separately by both the contracting officer
and the oversight manager. The files contained copies of the modifications and change orders that
Turner submitted. Attached to the modifications were price quotations from Turner’s suppliers and
subcontractors. However, the files did not contain any evidence of additional price analysis and
verification of the proposed prices for labor and materials.

We also reviewed Ratcliff’s contract modification and change order files maintained at its office in
Emeryville, California. Like the FDIC’s files, the Ratcliff files contained copies of the modifications and
change orders, but little or no additional information was available that would support what Ratcliff
actually did to verify or confirm the reasonableness of Turner’s proposed price estimates. We did find
several unattributed, undated, handwritten comments on the modifications and change orders. For
example, next to the line items listed on Change Order 33 under Modification 013 were handwritten
comments such as “ok” or “no” without any further explanation related to pricing. On a price quotation
from a vendor in Ratcliff’s Change Order 33 file was the following unsigned, handwritten comment:
“Ask Glumac to refine their comment.” (Glumac was the consultant Ratcliff used for electrical and
mechanical items.) Ratcliff was not able to provide us any additional documentation indicating whether
Glumac, in fact, ever did refine their comment. Another vendor quotation in the Change Order 33 file
contained the handwritten remark, “OK per Dasse.” (Dasse Design was Ratcliff’s consultant for
structural matters.) Again, no additional information could be found indicating the basis on which the
consultant made its determination. Change Order 29 under Modification 011 had the following
handwritten comment: “Please verify that Yamas & Paganini have not duplicated costs.” (Yamas was a
subcontractor to Columbia Mechanical, one of Turner’s electrical subcontractors. Paganini was also a
Turner electrical subcontractor.) The file did not contain any further indication that the requested
verification was performed.

Our review of Ratcliff’s files raised several questions about the absence of documentation for what steps
the contractor had actually taken to determine the reasonableness of Turner’s pricing of modifications
and change orders. Thus, we met with Ratcliff’s assistant project supervisor to try to answer our
questions and learned that formal procedures and documentation for reviewing and verifying
modification and change order pricing and requirements did not exist. Ratcliff’s representative stated
that the handwritten comments on the change orders were made by its assistant project supervisor and
Turner representatives. Regarding the possible duplication of costs by Yamas and Paganini, Ratcliff’s
                                                      6

assistant project supervisor stated that the issue was discussed at a change order meeting with the FDIC
and Turner, but it had not yet been resolved. The FDIC’s contracting officer did not recall this issue
and minutes of the periodic change order meetings were not kept.

According to Ratcliff’s assistant project supervisor, Ratcliff rendered opinions on proposed
modifications and change orders to the FDIC based on experience, consultations with subcontract
specialists, and periodic change order meetings with the FDIC and Turner. Ratcliff did not prepare
written descriptions of its review and price verification actions for contract modifications and change
orders. The FDIC, Ratcliff, and Turner relied primarily on oral communication to determine whether
there were accurate and adequate pricing data in support of modifications and change orders.

Turner’s senior project manager stated that Turner negotiated lump sum prices with its subcontractors
and suppliers for change order work. Turner billed the FDIC the same lump sum prices on approved
change orders. Turner reimbursed its vendors after receiving payment from the FDIC. Turner could
not provide any detailed pricing support or analyses of how it determined the reasonableness of the
lump sum prices negotiated with its subcontractors.

A concern we have regarding the lump sum pricing of the change order work is that Turner’s
subcontractors added overhead and profit (totaling 15 percent) to labor rates that appeared to be
already fully burdened. The FDIC agreed to such markups by Turner’s subcontractors in Modification
008. We believe the subcontractor’s labor rates were likely fully burdened because of the differences
we noted by comparing the labor rates stated in the change orders with the labor rates we identified by
reviewing the Department of Labor’s Occupational Employment Statistics (OES) for various types of
construction workers in San Francisco in 1999. For example, in one change order, Turner’s electrical
subcontractor used a journeyman electrician rate of $65.72 as compared to a base OES electrician rate
of $26.80. When asked about the subcontractor labor rates used in the modifications, FDIC, Turner,
and Ratcliff representatives stated that the rates used to price out the modifications were in accordance
with labor union agreements. However, we could not find any evidence that either the FDIC or Ratcliff
verified that the rates conformed to union agreements or whether the rates were fully burdened.


SPECIAL PROVISIONS ADDED TO CONTRACT MODIFICATIONS SHOULD BE
VERIFIABLE

According to the FDIC’s contracting officer, the FDIC did not validate or monitor the actual costs
incurred under Contract Modifications 017, 018, and 019, which stipulated a cost adjustment should
Turner’s actual cost of the modifications be 10 percent or more below the negotiated prices. If this
threshold was met, Turner was to notify the FDIC and credit the Corporation with the difference
between the negotiated price and the actual cost. The negotiated prices were $5,192 for modification
017, $93,686 for modification 018, and $62,633 for modification 019.

With assistance from the Legal Division, the contracting officer created the 10-percent provision in an
attempt to prevent the contractor from “over-profiting” on change orders. The monetary return
provision contained in Contract Modifications 017, 018, and 019 reads as follows: “The agreement to
modify this contract is based on the good faith representations and negotiations of the contractor as well
as on the attached information submitted by the contractor. In the event the final and true cost is less
                                                    7

than the price agreed to in this modification by 10% or more, the contractor shall notify the FDIC
Contracting Officer in writing and shall credit the FDIC with the difference between the price stated in
this modification and the actual final price.” However, the FDIC would find it difficult to enforce this
preventive measure because the actual costs on modifications containing this provision were not being
monitored or verified.

In a memorandum to the OIG dated March 21, 2001, the contracting officer stated: “With this new
clause, the contractor must notify the FDIC of any price adjustments. If the FDIC audits the contract
and discovers a discrepancy, the contractor would be subject to the False Claims Act, the fraud
provisions of the contract, and other civil penalties determined by Legal.”

We interviewed Turner’s senior project manager and senior accountant to determine whether the
contractor could accumulate actual costs by contract modification to meet the requirements of the 10-
percent provision of Modifications 017, 018, and 019. We learned that Turner did not have a job
order cost system that could identify costs to a specific modification or change order. Moreover, when
we asked Turner representatives to attempt to identify actual costs to specific modifications, they were
unable to do so. Therefore, Turner was not able to comply fully with the requirements of Modifications
017, 018, and 019. This condition rendered ineffective the contracting officer’s intent to prevent
overcharging on modifications by limiting reimbursement to actual costs.

Without previously verifying that Turner’s accounting system could identify actual costs by contract
modification or requiring in the contract that Turner maintain such a system, the FDIC was in the
position of having to rely on the contractor to disclose if and when the contractor’s actual cost was 10
percent or more below the negotiated price. The FDIC has not instituted specific procedures for
monitoring the costs to ensure compliance with the special modification provision that could result in
monetary returns to the FDIC.

Because of the inability of Turner to track actual costs incurred on Modifications 017, 018, and 019,
the actual costs of the modifications are unknown and cannot be verified. Consequently,
the 10-percent provision instituted by the contracting officer is basically unenforceable.




                                                    8

CONCLUSION AND RECOMMENDATIONS

There is insufficient evidence to determine whether the FDIC received the best prices for modification
work on the Ecker Square building renovation contract with Turner. The FDIC relied on Ratcliff to
provide advice on the reasonableness of contract modification work and pricing. However, very little
documentary evidence of any detailed analysis of labor rates and material quantities could be found in
the files maintained by the FDIC or Ratcliff. It is important for the FDIC to ensure that contractors
engaged to oversee projects like a building renovation provide sufficient evidence and justification for
their decisions concerning contract modifications and change orders. In future construction contracts,
the FDIC would benefit by better defining the contractor’s specific duties and responsibilities and by
verifying that they are implemented and documented as intended.

In seeking to prevent excess profits on change orders from accruing to the contractor, the FDIC added
a special provision to certain modifications that could not be completely verified. However, neither the
FDIC nor Ratcliff was monitoring actual costs to ensure compliance with the provision. In essence, the
FDIC relied on Turner to monitor itself and to notify the FDIC when the provision threshold was met.
Unfortunately, Turner could not accurately identify actual costs by modification. Even with fixed price
contracts, modifications that add special provisions can change the nature of the contract type to the
extent that additional FDIC oversight and administration would be required. Before adding such a
provision, it would be beneficial for the FDIC to know that the contractor’s accounting system is
capable of segregating costs in accordance with the provision’s terms, or to require such a system as a
function of the contract.

We believe that the conditions we encountered in auditing the Turner contract modifications could
be avoided by adding specific language to the APM and to the contracts themselves that spells out
the detailed steps to be taken to ensure accurate and adequate contract modification pricing. The FDIC
may also want to consider augmenting the APM with some of the guidance contained in the Federal
Acquisition Regulation. Specifically, FAR Part 36 on construction and architect-engineer contracts,
Part 43 on contract modifications, and Part 44 on subcontracting policies and
procedures may prove helpful. For example, FAR Part 43.203 (a) states: “Contractors’ accounting
systems are seldom designed to segregate the costs of performing changed work. Therefore, before
prospective contractors submit offers; the contracting officer should advise them of the possible
need to revise their accounting procedures to comply with…cost segregation requirements….”
Also, FAR Part 44.303 states, “Special attention shall be given to--…(b) Pricing policies and
techniques, including methods of obtaining accurate, complete, and current cost or pricing data and
certification….” FAR Part 44.304 goes on to state: “(a) The [Administrative Contracting Officer] shall
maintain a sufficient level of surveillance to ensure that the contractor is effectively managing its
purchasing program (b) Surveillance shall be accomplished in accordance with a plan developed by the
[Administrative Contracting Officer] with the assistance of subcontracting, audit, pricing, technical, or
other specialists as necessary.”




                                                    9

Accordingly, to better control the contract modification process, we recommend that the Director,
DOA:

(1) Ensure that contract provisions for modifications and change orders include criteria and procedures
    for what constitutes accurate and adequate pricing data.

(2) Enhance the APM by adding a requirement that sufficient documentary evidence be obtained and/or
    prepared to support the pricing of modifications and change orders.

(3) Consider augmenting the APM with information from the relevant sections of FAR Parts 43
    and 44.

(4) Before adding special provisions to contract modifications, ensure that the contractor has an
    accounting system that is capable of providing the information needed to meet the provision’s
    requirements


CORPORATION COMMENTS AND OIG EVALUATION

On July 13, 2001, the Director of DOA provided a written response to the draft report. The response
is presented in Appendix I of this report. The Director stated that DOA management concurred with
the audit recommendations. By July 31, 2001, DOA will issue guidance in memorandum form to all
contracting officers on documentation requirements for ensuring that prices related to modifications and
change orders are reasonable and fully supported. The guidance will also require any special provisions
contained in contract modifications to be consistent with the capabilities of the contractor’s accounting
systems. The Director added that DOA intends to formally update the APM in 2002.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is necessary.
Appendix II presents management’s proposed action on our recommendations and shows that there is a
management decision for each recommendation in this report.




                                                   10

                                            CORPORATION COMMENTS                             APPENDIX I

          Federal Deposit Insurance Corporation
          550 17th Street, NW, Washington, DC 20429                                     Division of Administration



                                                                 July 12, 2001

MEMORANDUM TO:	 Sharon M. Smith
                Assistant Inspector General

FROM:                         Arleas Upton Kea [Electronically produced version; original signed by
                                  Arleas Upton Kea]
                              Director, Division of Administration

SUBJECT:                      Management Response to Draft Report: Audit of Ecker Square Building
                              Renovation Contract Modifications

The Division of Administration (DOA) has completed its review of the subject Office of Inspector
General (OIG) draft report. We appreciate the review performed by the OIG, and its conclusion that
the DOA generally complied with all existing procurement policies, procedures, and delegations of
authority governing contract modifications and change orders, and that the Oversight Manager and
Contracting Officer adhered to the requirements of Chapter 7 of the Acquisition Policy Manual for
administering and overseeing the contract. In the report, the OIG made four recommendations to DOA
related to two audit findings.

This response summarizes our planned corrective actions with respect to the audit recommendations
made by the OIG, and provides expected completion dates and the documentation that will confirm
completion.

Management Decision:

Recommendation # 1: Ensure that contract provisions for modifications and change orders include
criteria and procedures for what constitutes accurate and adequate pricing data.

Management Response # 1: DOA management concurs with this recommendation. We agree that
the Contracting Officer has the obligation to ensure that all contractual prices are reasonable. Chapter
6.D.2.e provides that the method and level of detail needed for cost reasonableness is determined at the
discretion of the Contracting Officer. As this requirement is an important aspect in determining if the
costs of goods and services are fair and reasonable, the Assistant Director, Acquisition Section, will
issue a memorandum reiterating to Contracting Officers the requirements for determining price
reasonableness. Further, this memorandum will include procedures and documentation requirements for
ensuring that prices related to modifications and change orders are likewise reasonable and fully
supported. This memorandum will be issued by July 31, 2001.

Recommendation # 2: Enhance the APM by adding a requirement that sufficient documentary
evidence be obtained and/or prepared to support the pricing of modifications and change orders.


                                                      11

Management Response # 2: DOA management agrees with this recommendation. We agree that all
Contracting Officers should ensure that all contractual prices are reasonable and follow competitive
procedures where appropriate. DOA intends on conducting a formal update of the APM in 2002. In
the interim, to be immediately responsive, the Assistant Director, Acquisition Section, will issue a
memorandum to all Contracting Officers reemphasizing this requirement and include procedures and
documentation requirements for ensuring that prices related to modifications and change orders are
likewise reasonable and fully supported. The memorandum will be issued by July 31, 2001. DOA will
deem this recommendation to be complete as of the date of issuance of the memorandum.

Recommendation # 3: Consider augmenting the APM with information from the relevant sections of
FAR Parts 43 and 44.

Management Response # 3: DOA management concurs with this recommendation in part. DOA,
Acquisition Section has reviewed the Federal Acquisition Regulations, Parts 43 and 44, specifically,
Part 43.203 – Change Order Accounting Procedures, Part 44.303 – (Contractors’ Purchasing Systems
Review) Extent of Review, and Part 44.304 – Surveillance. DOA believes that the existing language in
the APM and the subsequent guidance to be issued by the Assistant Director, Acquisition Section, to be
the appropriate action to ensure compliance. This memorandum will include the requirement that any
contract modification special provisions are consistent with the contractor’s accounting systems. The
memorandum will be issued by July 31, 2001.

Recommendation # 4: Before adding special provisions to contract modifications, ensure that the
contractor has an accounting system that is capable of providing the information needed to meet the
provision’s requirements.

Management Response # 4: DOA management concurs with this recommendation. The Assistant
Director, Acquisition Section, will issue a memorandum to all Contracting Officers requiring that any
special provisions contained in contract modifications are consistent with the capabilities of the
contractor’s accounting systems to ensure compliance. The memorandum to all Contracting Officers
will be issued by July 31, 2001.

If you have any questions regarding the response, our point of contact for this matter is Andrew Nickle,
Audit Liaison for the Division of Administration. Mr. Nickle can be reached at (202) 942-3190.


cc: Michael Rubino
    Vijay Deshpande




                                                   12

                                                                                                                            APPENDIX II
                                    MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its

semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,

several conditions are necessary. First, the response must describe for each recommendation


� the specific corrective actions already taken, if applicable;

� corrective actions to be taken together with the expected completion dates for their implementation; and

� documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons

for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.


If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the

documentation confirming completion of corrective actions are responsive to its recommendations.


This table presents the management responses that have been made on recommendations in our report and the status of management decisions.

The information for management decisions is based on management’s written response to our report.





                                                                     13

                                                                                   Documentation                 Management
 Rec.                                                              Expected       That Will Confirm   Monetary   Decision: Yes
Number    Corrective Action: Taken or Planned/Status            Completion Date     Final Action      Benefits      or No
         DOA will provide guidance to contracting officers
         on procedures and documentation requirements for                            Guidance
  1                                                               July 31, 2001                         N/A          Yes
         ensuring that contract modification and change                             memorandum
         order prices are reasonable and fully supported.
         DOA will formally update the APM in 2002 and,
         in the interim, will provide guidance to contracting
                                                                                     Guidance
  2      officers reemphasizing the importance of ensuring        July 31, 2001                         N/A          Yes
                                                                                    memorandum
         the reasonableness of contract modification and
         change order prices.
         DOA reviewed FAR Parts 43 and 44 and will
         issue guidance requiring any special provisions                             Guidance
  3                                                               July 31, 2001                         N/A          Yes
         contained in contract modifications to be consistent                       memorandum
         with the contractor’s accounting systems.
         DOA will issue guidance requiring contracting
         officers to ensure that a contractor’s accounting
                                                                                     Guidance
  4      system is capable of providing the information           July 31, 2001                         N/A          Yes
                                                                                    memorandum
         needed to meet the requirements of special
         provisions contained in contract modifications.




                                                                 14

